                  Department of Veterans Affairs
                  Office of Inspector General


                    Office of Healthcare Inspections

Report No. 13-00026-302




       Community Based Outpatient 

               Clinic Reviews 

                      at 

       Chillicothe VA Medical Center 

               Chillicothe, OH 





August 29, 2013

                        Washington, DC 20420
                     Why We Did This Review
The VA OIG is undertaking a systematic review of the VHA’s CBOCs to assess
whether CBOCs are operated in a manner that provides veterans with
consistent, safe, high-quality health care.

The Veterans’ Health Care Eligibility Reform Act of 1996 was enacted to
equip VA with ways to provide veterans with medically needed care in a
more equitable and cost-effective manner. As a result, VHA expanded the
Ambulatory and Primary Care Services to include CBOCs located throughout
the United States. CBOCs were established to provide more convenient
access to care for currently enrolled users and to improve access opportunities
within existing resources for eligible veterans not currently served.

Veterans are required to receive one standard of care at all VHA health care
facilities. Care at CBOCs needs to be consistent, safe, and of high quality,
regardless of model (VA-staffed or contract). CBOCs are expected to comply
with all relevant VA policies and procedures, including those related to quality,
patient safety, and performance.

 To Report Suspected Wrongdoing in VA Programs and Operations
                     Telephone: 1-800-488-8244
                     E-Mail: vaoighotline@va.gov
  (Hotline Information: http://www.va.gov/oig/hotline/default.asp)
                                                                    CBOC Reviews at Chillicothe VAMC



                                              Glossary
                       C&P      credentialing and privileging
                       CBOC     community based outpatient clinic
                       CDC      Centers for Disease Control and Prevention
                       EHR      electronic health record
                       EOC      environment of care
                       FPPE     Focused Professional Practice Evaluation
                       FY       fiscal year
                       MH       mental health
                       NC       noncompliant
                       NCP      National Center for Health Promotion and
                                Disease Prevention
                       OIG      Office of Inspector General
                       VAMC     VA Medical Center
                       VHA      Veterans Health Administration
                       VISN     Veterans Integrated Service Network
                       WH       women’s health




VA OIG Office of Healthcare Inspections
                                                                                      CBOC Reviews at Chillicothe VAMC



                                            Table of Contents 

                                                                                                                            Page 

Executive Summary ...................................................................................................             i


Objectives and Scope ................................................................................................             1

  Objectives ...............................................................................................................      1

  Scope and Methodology .........................................................................................                 1


CBOC Profiles ............................................................................................................        3


WH and Vaccination EHR Reviews – Results and Recommendations..................                                                    4

  WH..........................................................................................................................    4

  Vaccinations ...........................................................................................................        5


Onsite Reviews – Results and Recommendations..................................................                                    7

  CBOC Characteristics .............................................................................................              7

  C&P ........................................................................................................................    8

  EOC and Emergency Management ........................................................................                           9


Appendixes
  A. VISN 10 Director Comments .............................................................................                     12

  B. Chillicothe VAMC Director Comments ...............................................................                          13

  C. OIG Contact and Staff Acknowledgments .........................................................                             16

  D. Report Distribution .............................................................................................           17





VA OIG Office of Healthcare Inspections
                                                                 CBOC Reviews at Chillicothe VAMC



                                Executive Summary 

Purpose: We evaluated select activities to assess whether the CBOCs operated in a
manner that provides veterans with consistent, safe, high-quality health care.

We conducted an onsite inspection of the Portsmouth CBOC during the week of
March 18, 2013.

The review covered the following topic areas:

        WH

        Vaccinations

        C&P

        EOC

        Emergency Management

For the WH and vaccinations topics, EHR reviews were performed for patients who
were randomly selected from all CBOCs assigned to the parent facility. The C&P, EOC,
and emergency management onsite inspections were only conducted at the randomly
selected CBOC listed in Table 1.

    VISN        Facility                   CBOC Name                Location
        10      Chillicothe VAMC           Portsmouth               Portsmouth, OH
                                      Table 1. Sites Inspected

Review Results: We made recommendations in three review areas.

Recommendations:       The VISN and Facility Directors, in conjunction with the
respective CBOC managers, should take appropriate actions to:

   Ensure that patients with normal cervical cancer screening results are notified of
    results within the required timeframe and that notification is documented in the EHR.

   Ensure that clinicians administer pneumococcal vaccinations when indicated.

   Ensure that clinicians document all required tetanus vaccine administration elements
    and that compliance is monitored.

   Ensure that a written inventory of hazardous materials is maintained.

   Ensure that all identified EOC deficiencies are tracked, trended, and corrected.



VA OIG Office of Healthcare Inspections                                                        i
                                                    CBOC Reviews at Chillicothe VAMC


Comments
The VISN and Facility Directors concurred with our recommendations and provided
acceptable improvement plans. (See Appendixes A and B, pages 12–15, for the
Directors’ comments.) We will follow up on the planned actions until they are
completed.




                                              JOHN D. DAIGH, JR., M.D.
                                             Assistant Inspector General for
                                                  Healthcare Inspections




VA OIG Office of Healthcare Inspections                                           ii
                                                                        CBOC Reviews at Chillicothe VAMC



                                  Objectives and Scope 

Objectives
	 Evaluate whether CBOCs comply with selected VHA requirements regarding the
   provision of cervical cancer screening, results reporting, and WH liaisons.
	 Evaluate whether CBOCs properly provided selected vaccinations to veterans
   according to CDC guidelines and VHA recommendations.
	 Determine whether CBOC providers are appropriately credentialed and privileged in
   accordance with VHA Handbook 1100.19.1
	 Determine whether CBOCs are in compliance with standards of operations
   according to VHA policy in the areas of environmental safety and emergency
   planning.2

Scope and Methodology
Scope

We reviewed selected clinical and administrative activities to evaluate compliance with
requirements related to patient care quality and the EOC. In performing the reviews, we
assessed clinical and administrative records as well as completed onsite inspections at
randomly selected sites. Additionally, we interviewed managers and employees. The
review covered the following five activities:

      	   WH

      	   Vaccinations

      	   C&P

      	   EOC

      	   Emergency Management

Methodology

To evaluate the quality of care provided to veterans at CBOCs, we conducted EHR
reviews for the WH and vaccinations topic areas. For WH, the EHR reviews consisted
of a random sample of 50 women veterans (23–64 years of age). For vaccinations, the
EHR reviews consisted of random samples of 75 veterans (all ages) and 75 additional
veterans (65 and older), unless fewer patients were available, for the tetanus and



1
    VHA Handbook 1100.19, Credentialing and Privileging, November 14, 2008.

2
    VHA Handbook 1006.1, Planning and Activating Community-Based Outpatient Clinics, May 19, 2004. 



VA OIG Office of Healthcare Inspections                                                                1
                                                                             CBOC Reviews at Chillicothe VAMC


pneumococcal reviews, respectively. The study populations consisted of patients from
all CBOCs assigned to the parent facility.3

The C&P, EOC, and emergency management onsite inspections were only conducted
at the randomly selected CBOC. One CBOC was randomly selected from the
56 sampled parent facilities, with sampling probabilities proportional to the numbers of
CBOCs eligible to be inspected within each of the parent facilities.4

In this report, we make recommendations for improvement. Recommendations pertain
to issues that are significant enough to be monitored by the OIG until corrective actions
are implemented.

We conducted the inspection in accordance with Quality Standards for Inspection and
Evaluation published by the Council of the Inspectors General on Integrity and
Efficiency.




3
    Includes all CBOCs in operation before October 1, 2011.

4
    Includes 96 CBOCs in operation before October 1, 2011, that had 500 or more unique enrollees.



VA OIG Office of Healthcare Inspections                                                                    2
                                                                                                                       CBOC Reviews at Chillicothe VAMC



                                                                CBOC Profiles 

To evaluate the quality of care provided to veterans at CBOCs, we designed reviews with an EHR component to capture data
for patients enrolled at all of the CBOCs under the parent facilities’ oversight.5 The table below provides information relative to
each of the CBOCs under the oversight of the respective parent facility.

                                                                                                        Uniques FY          Visits FY
        VISN               Parent Facility                  CBOC Name                   Locality6         20127               20128        CBOC Size9
                                                                 Athens                   Rural             2,192             20,811          Mid-Size
                                                              (Athens, OH)
                                                               Cambridge                  Rural             1,556             11,770          Mid-Size
                                                           (Cambridge, OH)
                                                                Lancaster                 Rural             3,058             23,740          Mid-Size
         10                Chillicothe VAMC
                                                            (Lancaster, OH)
                                                                 Marietta                 Urban             1,592             11,420          Mid-Size
                                                             (Marietta, OH)
                                                               Portsmouth                 Rural             2,673             21,946          Mid-Size
                                                           (Portsmouth, OH)
                                                              Table 2. Profiles




5
  Includes all CBOCs in operation before October 1, 2011.

6
  http://vaww.pssg.med.va.gov/

7
  http://vssc.med.va.gov

8
  http://vssc.med.va.gov

9
 Based on the number of unique patients seen as defined by VHA Handbook 1160.01, Uniform Mental Health Services in VA Medical Centers and Clinics,

September 11, 2008, the size of the CBOC facility is categorized as very large (> 10,000), large (5,000-10,000), mid-size (1,500-5,000), or small (< 1,500).




VA OIG Office of Healthcare Inspections                                                                                                                   3
                                                                          CBOC Reviews at Chillicothe VAMC



                     WH and Vaccination EHR Reviews 

                      Results and Recommendations 

WH
Cervical cancer is the second most common cancer in women worldwide.10 Each year,
approximately 12,000 women in the United States are diagnosed with cervical cancer.11
The first step of care is screening women for cervical cancer with the Papanicolaou test
or “Pap” test. With timely screening, diagnosis, notification, and treatment, the cancer is
highly preventable and associated with long survival and good quality of life.

VHA policy outlines specific requirements that must be met by facilities that provide
services for women veterans.12 We reviewed EHRs, meeting minutes and other
relevant documents, and interviewed key WH employees. Table 3 shows the areas
reviewed for this topic. The review element marked as NC needed improvement.
Details regarding the finding follow the table.

             NC                                       Areas Reviewed
                               Cervical cancer screening results were entered into the
                               patient’s EHR.
                               The ordering VHA provider or surrogate was notified of results
                               within the defined timeframe.
              X                Patients were notified of results within the defined timeframe.
                               Each CBOC has an appointed WH Liaison.
                               There is evidence that the CBOC has processes in place to
                               ensure that WH care needs are addressed.
                                                 Table 3. WH

There were 22 patients who received a cervical cancer screening at the Chillicothe
VAMC and its CBOCs.

Patient Notification of Normal Cervical Cancer Screening Results. VHA requires that
normal cervical cancer screening results must be communicated to the patient in terms
easily understood by a layperson within 14 days from the date of the pathology report
becoming available. We reviewed 22 EHRs of patients who had normal cervical cancer
screening results and determined that 8 patients were not notified within the required
14 days from the date the pathology report became available.




10
   World Health Organization, Comprehensive Cervical Cancer Prevention and Control: A Healthier Future for 

Girls and Women, Retrieved (4/25/2013): http://www.who.int/reproductivehealth/topics/cancers/en/index.html.

11
   U.S. Cancer Statistics Working Group, United States Cancer Statistics: 1999-2008 Incidence and Mortality Web-

based report.

12
   VHA Handbook 1330.01, Health Care Services for Women Veterans, May 21, 2010. 



VA OIG Office of Healthcare Inspections                                                                         4
                                                                          CBOC Reviews at Chillicothe VAMC


Recommendation

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Vaccinations
The VHA NCP was established in 1995. The NCP establishes and monitors the clinical
preventive services offered to veterans, which includes the administration of vaccines.13
The NCP provides best practices guidance on the administration of vaccines for
veterans. The CDC states that although vaccine-preventable disease levels are at or
near record lows, many adults are under-immunized, missing opportunities to protect
themselves against tetanus and pneumococcal diseases.

Adults should receive a tetanus vaccine every 10 years. At the age of 65, individuals
who have never had a pneumococcal vaccination should receive one. For individuals
65 and older who have received a prior pneumococcal vaccination, one-time
revaccination is recommended if they were vaccinated 5 or more years previously and
were less than 65 years of age at the time of the first vaccination.

We reviewed documentation of selected vaccine administrations and interviewed key
personnel. Table 4 shows the areas reviewed for this topic. The review elements
marked as NC needed improvement. Details regarding the findings follow the table.

          NC                                      Areas Reviewed
                      Staff screened patients for the tetanus vaccination.
                      Staff administered the tetanus vaccine when indicated.
                      Staff screened patients for the pneumococcal vaccination.
           X          Staff administered the pneumococcal vaccine when indicated.
           X          Staff properly documented vaccine administration.
                      Managers developed a prioritization plan for the potential occurrence of
                      vaccine shortages.
                                             Table 4. Vaccinations

Pneumococcal Vaccination Administration for Patients with Pre-Existing Conditions.
The CDC recommends that at the age of 65, individuals that have never had a
pneumococcal vaccination should receive one.14 For individuals 65 and older who have
received a prior pneumococcal vaccination, a one-time revaccination is recommended if
they were vaccinated 5 or more years previously and were less than 65 years of age at
the time of the first vaccination. We reviewed the EHRs of two patients with pre-existing
conditions who received their first vaccine prior to the age of 65. We did not find
documentation in either of the EHRs indicating that their second vaccinations had been
administered.

13
     VHA Handbook 1120.05, Coordination and Development of Clinical Preventive Services, October 13, 2009.
14
     Centers for Disease Control and Prevention, http://www.cdc.gov/vaccines/vpd-vac/.


VA OIG Office of Healthcare Inspections                                                                      5
                                                                          CBOC Reviews at Chillicothe VAMC




Documentation of Tetanus Vaccination. Federal Law requires that documentation for
administered vaccinations include specific elements, such as the vaccine manufacturer
and lot number of the vaccine used.15 We reviewed the EHRs of 6 patients who
received a tetanus vaccine administration at the parent facility or its associated CBOCs
and did not find documentation of all the required information related to tetanus vaccine
administration in any of the EHRs.

Recommendation

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccines when indicated.

3. We recommended that managers ensure that clinicians document all required
tetanus vaccination administration elements and that compliance is monitored.




15
     Childhood Vaccine Injury Act of 1986 (PL 99 660) sub part C, November 16, 2010.


VA OIG Office of Healthcare Inspections                                                                 6
                                                                     CBOC Reviews at Chillicothe VAMC



                                Onsite Reviews 

                        Results and Recommendations 

CBOC Characteristics
We formulated a list of CBOC characteristics that includes identifiers and descriptive
information for the randomly selected CBOCs (see Table 5).

                                                                         Portsmouth
 VISN                                                                          10
 Parent Facility                                                       Chillicothe VAMC
 Types of Providers                                                  Clinical Pharmacist
                                                               Licensed Clinical Social Worker
                                                                      Nurse Practitioner
                                                                         Optometrist
                                                                     Physician Assistant
                                                                          Podiatrist
                                                                   Primary Care Physician
                                                                        Psychologist
 Number of MH Uniques, FY 2012                                              1,006
 Number of MH Visits, FY 2012                                                3,719
 MH Services Onsite                                                           Yes
 Specialty Care Services Onsite                                           Optometry
                                                                           Podiatry
                                                                             WH
 Ancillary Services Provided Onsite                                      Laboratory
                                                                           Nutrition
                                                                      Physical Medicine
 Tele-Health Services                                                   Dermatology
                                                                       Endocrinology
                                                                             MH
                                                                           MOVE16
                                                                      Pain Management
                                                                       Retinal Imaging
                                                                      Speech Pathology
                                                                      Spinal Cord Injury
                                                                           Surgery
                                         Table 5. Characteristics




16
     VHA Handbook 1120.01, MOVE! Weight Management Program for Veterans, March 31, 2011.


VA OIG Office of Healthcare Inspections                                                            7
                                                              CBOC Reviews at Chillicothe VAMC


C&P
We reviewed C&P folders, scopes of practice, meeting minutes, and VetPro information
and interviewed senior managers to determine whether facilities had consistent
processes to ensure that providers complied with applicable requirements as defined by
VHA policy.17 Table 6 shows the areas reviewed for this topic.

           NC                                       Areas Reviewed
                         Each provider’s license was unrestricted.
                                             New Provider
                         Efforts were made to obtain verification of clinical privileges
                         currently or most recently held at other institutions.
                         FPPE was initiated.
                         Timeframe for the FPPE was clearly documented.
                         The FPPE outlined the criteria monitored.
                         The FPPE was implemented on first clinical start day.
                         The FPPE results were reported to the medical staff’s Executive
                         Committee.
                                        Additional New Privilege
                         Prior to the start of a new privilege, criteria for the FPPE were
                         developed.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                                          FPPE for Performance
                         The FPPE included criteria developed for evaluation of the
                         practitioners when issues affecting the provision of safe, high-
                         quality care were identified.
                         A timeframe for the FPPE was clearly documented.
                         There was evidence that the provider was educated about FPPE
                         prior to its initiation.
                         FPPE results were reported to the medical staff’s Executive
                         Committee.
                               Privileges and Scopes of Practice
                         The Service Chief, Credentialing Board, and/or medical staff’s
                         Executive Committee list documents reviewed and the rationale for
                         conclusions reached for granting licensed independent practitioner
                         privileges.
                         Privileges granted to providers were setting, service, and provider
                         specific.
                         The determination to continue current privileges was based in part
                         on results of Ongoing Professional Practice Evaluation activities.
                                          Table 6. C&P


17
     VHA Handbook 1100.19.


VA OIG Office of Healthcare Inspections                                                     8
                                                          CBOC Reviews at Chillicothe VAMC


All CBOCs were compliant with the review areas; therefore, we made no
recommendations.

EOC and Emergency Management
EOC

To evaluate the EOC, we inspected patient care areas for cleanliness, safety, infection
control, and general maintenance. We reviewed relevant documents and interviewed
key employees and managers. Table 7 shows the areas reviewed for this topic. The
review elements marked as NC needed improvement. Details regarding the findings
follow the table.

        NC                                     Areas Reviewed
                    The CBOC was Americans Disabilities Act-compliant, including:
                    parking, ramps, door widths, door hardware, restrooms, and
                    counters.
                    The CBOC was well maintained (e.g., ceiling tiles clean and in good
                    repair, walls without holes, etc.).
                    The CBOC was clean (walls, floors, and equipment are clean).
                    Material safety data sheets were readily available to staff.
         X          There is a written, current inventory of hazardous materials.
                    The patient care area was safe.
                    Access to fire alarms and fire extinguishers was unobstructed.
                    Fire extinguishers were visually inspected monthly.
                    Exit signs were visible from any direction.
                    There was evidence of fire drills occurring at least annually.
                    Fire extinguishers were easily identifiable.
                    There was evidence of an annual fire and safety inspection.
                    There was an alarm system or panic button installed in high-risk
                    areas as identified by the vulnerability risk assessment.
                    The CBOC had a process to identify expired medications.
                    Medications were secured from unauthorized access.
                    Privacy was maintained.
                    Patients’ personally identifiable information was secured and
                    protected.
                    Laboratory specimens were transported securely to prevent
                    unauthorized access.
                    There was proper storage of equipment and supplies to minimize
                    infection.
                    Staff used two patient identifiers for blood drawing procedures.
                    Information Technology security rules were adhered to.
                    There was alcohol hand wash or a soap dispenser and sink available
                    in each examination room.
                    Sharps containers were less than 3/4 full.



VA OIG Office of Healthcare Inspections                                                 9
                                                                        CBOC Reviews at Chillicothe VAMC


         NC                               Areas Reviewed (continued)
                      Safety needle devices were available for staff use (e.g., lancets,
                      injection needles, phlebotomy needles).
          X           The CBOC was included in facility-wide EOC activities.
                                                Table 7. EOC

Inventory of Hazardous Materials. The Joint Commission requires a written, current
inventory of hazardous materials that are used, stored, or generated.18 We observed
that material safety data sheets were available for all possible hazardous materials;
however, we did not find a written, current inventory of the hazardous materials that are
used or stored.

EOC Rounds. EOC rounds have been conducted according to facility policy.19
However, the deficiencies identified have not been tracked and trended as required by
facility policy; therefore, we were unable to ensure that the identified deficiencies were
corrected.

Recommendations

4. We recommended that a written inventory of hazardous materials is maintained.

5. We recommended that all identified EOC deficiencies are tracked, trended, and
corrected.

Emergency Management
VHA policy requires each CBOC to have a local policy or standard operating procedure
defining how medical and MH emergencies are handled.20 Table 8 shows the areas
reviewed for this topic.

         NC                                       Areas Reviewed
                       There was a local medical emergency management plan for this
                       CBOC.
                       The staff articulated the procedural steps of the medical emergency
                       plan.
                       The CBOC had an automated external defibrillator onsite for cardiac
                       emergencies.
                       There was a local MH emergency management plan for this CBOC.
                       The staff articulated the procedural steps of the MH emergency
                       plan.
                                    Table 8. Emergency Management




18
   The Joint Commission Hospital Accreditation Program Manual 2009 Addition, Standard EC 02.02.01. 

19
   Memorandum 001-25, Environmental Rounds, August 31, 2012. 

20
   VHA Handbook 1006.1. 



VA OIG Office of Healthcare Inspections                                                                10
                                           CBOC Reviews at Chillicothe VAMC


The CBOC was compliant with the review areas; therefore, we made no
recommendations.




VA OIG Office of Healthcare Inspections                                 11
                                                           CBOC Reviews at Chillicothe VAMC
                                                                                 Appendix A
                                VISN 10 Director Comments


               Department of
               Veterans Affairs                             Memorandum


       Date:        July 29, 2013

       From:        Director, VISN 10 (10N10)

       Subject: CBOC Reviews at Chillicothe VAMC

       To:          Director, 54DC Healthcare Inspections Division (54DC)

                    Acting Director, Management Review Service (VHA 10AR MRS
                    OIG CAP CBOC)

       Thank you for the opportunity to review the draft report of the Community
       Based Outpatient Clinic Review at Chillicothe Veterans Affairs Medical
       Center. I have reviewed the document and concur with the
       recommendations.

       I have reviewed the corrective action plans and appreciate the opportunity
       to continuously improve the services and care we provide. If additional
       information is needed, please contact Ms. Jane Johnson, Deputy Quality
       Management Officer at (513) 247-4631.




        (original signed by:)

       Jack G. Hetrick, FACHE




VA OIG Office of Healthcare Inspections                                                 12
                                                         CBOC Reviews at Chillicothe VAMC
                                                                               Appendix B
                    Chillicothe VAMC Director Comments



               Department of
               Veterans Affairs                           Memorandum


       Date:       July 25, 2013

       From:       Wendy J. Hepker, FACHE, Director, Chillicothe VAMC (538/00)

       Subject: CBOC Reviews at Chillicothe VAMC

       To:          Director, VISN 10 (10N10)

       Thank you for the opportunity to review the draft report of the Community
       Based Outpatient Clinic Reviews at Chillicothe Veterans Affairs Medical
       Center. I have reviewed the document and concur with the
       recommendations.

       Corrective action plans have been established with planned completion
       dates, as detailed in the attached report. If additional information is
       needed, please contact my office at 740-773-1141.




       (original signed by:)

       WENDY J. HEPKER, FACHE

       Medical Center Director




VA OIG Office of Healthcare Inspections                                               13
                                                            CBOC Reviews at Chillicothe VAMC


                               Comments to OIG’s Report

The following Director’s comments are submitted in response to the recommendations
in the OIG report:

OIG Recommendations

1. We recommended that managers ensure that patients with normal cervical cancer
screening results are notified of results within the required timeframe and that
notification is documented in the EHR.

Concur

Target date for completion: November 1, 2013

The CBOC has strengthened their process to ensure that patients with normal cervical
cancer screening results are notified of the results within the required 14 days from the
time the pathology report is available. A tracking sheet has been developed to track any
cervical cancer screening procedure done at the CBOC. The Women's Health Liaison
will follow the tracking grid and ensure that the patients are notified of the results within
the defined timeframe. Compliance with this strengthened process will be monitored for
three months for reporting results to the patient within 14 days and the documentation of
those results.

2. We recommended that managers ensure that clinicians administer pneumococcal
vaccinations when indicated.

Concur

Target date for completion: November 1, 2013

A plan will be developed to reinforce education on the Center for Disease Control (CDC)
guidelines on administration of pneumococcal vaccines. This education will be directed
to providers and nursing staff emphasizing the requirement to reassess those patients
that received the vaccine prior to age 65. The compliance with this process will be
monitored for three months and any deficiencies will be addressed with the clinical staff.

3. We recommended that managers ensure that clinicians document all required
tetanus vaccination administration elements and that compliance is monitored.

Concur

Target date for completion: November 1, 2013

The Medical Center has strengthened the process to ensure that all required elements
of the tetanus vaccination administration are included in the documentation. Information
has been added to the tetanus vaccination template in the EHR that triggers the most


VA OIG Office of Healthcare Inspections                                                   14
                                                           CBOC Reviews at Chillicothe VAMC


recent vaccine information statement (VIS) released from the Center for Disease
Control on January 24, 2012. The VIS is given to the patient prior to the administration
of the vaccine. Compliance with this strengthened process will be monitored for
3 months to ensure all required elements of the vaccination administration are
documented in the EHR.

4. We recommended that a written inventory of hazardous materials is maintained.

Concur

Target date for completion: August 31, 2013

The CBOC will develop an updated chemical inventory with assistance from the
Industrial Hygienist. The CBOC managers and Department Level Safety Officers will
receive training on updating and managing the inventory onsite.

5. We recommended that all identified EOC deficiencies are tracked, trended, and
corrected.

Concur

Target date for completion: November 1, 2013

The Medical Center does track the corrective actions associated with identified
deficiencies and corrections are consistently completed within the defined timeframes.
Monthly reporting of these actions has been inconsistent. The Medical Center will
strengthen the reporting process of all data related to the deficiencies identified during
Environment of Care rounds. A report of the deficiencies will be presented monthly to
the Environment of Care Committee. A report of the trended data will be given to the
EOC Committee quarterly. Minutes will be audited for a period of three months to
ensure compliance with this strengthened process.




VA OIG Office of Healthcare Inspections                                                 15
                                                            CBOC Reviews at Chillicothe VAMC
                                                                                  Appendix C


                 OIG Contact and Staff Acknowledgments
Contact                 For more information about this report, please contact the OIG
                        at (202) 461-4720.
Onsite                  Myra Conway, MS, RN, Team Leader
Contributors            Margie Chapin, JD
Other                   Shirley Carlile, BA
Contributors            Lin Clegg, PhD
                        Marnette Dhooghe, MS
                        Matt Frazier, MPH
                        Donna Giroux, RN, BSN,
                        Jennifer Reed, RN, MSHI
                        Victor Rhee, MHS
                        Natalie Sadow-Colón, MBA, Program Support Assistant
                        Patrick Smith, M. Stat
                        Randall Snow, JD
                        Marilyn Stones, BS
                        Mary Toy, RN, MSN
                        Jarvis Yu, MS




VA OIG Office of Healthcare Inspections                                                  16
                                                        CBOC Reviews at Chillicothe VAMC
                                                                              Appendix D


                                   Report Distribution
VA Distribution

Office of the Secretary
Veterans Health Administration
Assistant Secretaries
General Counsel
Director, VISN 10 (10N10)
Director, Chillicothe VAMC (538/00)

Non-VA Distribution

House Committee on Veterans’ Affairs
House Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
House Committee on Oversight and Government Reform
Senate Committee on Veterans’ Affairs
Senate Appropriations Subcommittee on Military Construction, Veterans Affairs, and
 Related Agencies
Senate Committee on Homeland Security and Governmental Affairs
National Veterans Service Organizations
Government Accountability Office
Office of Management and Budget
U.S. Senate: Sherrod Brown, Rob Portman
U.S. House of Representatives: Bill Johnson, Steve Stivers, Michael Turner, Brad
 Wenstrup


This report is available at www.va.gov/oig.




VA OIG Office of Healthcare Inspections                                              17
